)<)-1^07
No. 20 -

In the
SUPREME COURT OF THE UNITED STATES
GEOFFREY M. YOUNG, pro se, Petitioner
vs.
DENISE G. CLAYTON, Chief Judge of the
Kentucky Court of Appeals, Respondent
Wesley Deskins, Counsel of Record
Kentucky Court of Appeals
360 Democrat Drive, Frankfort, KY 40601
(502) 573-7920, Email: wesleyd@kycourts.net
On Petition for Writ of Certiorari to the
Supreme Court of Kentucky

PETITION FOR WRIT OF CERTIORARI
Geoffrey M. Young, pro se
454 Kimberly Place
Lexington, Kentucky 40503
energetic22@yahoo.com
(859) 278-4966

RECEIVED
APR I- 2020
OFFICE OF THE CLERK
SUPREME COURT; l iT

1

QUESTIONS PRESENTED FOR REVIEW
1) Whether the Supreme Court of Kentucky
may nullify Kentucky's ballot challenge statute,
Kentucky Revised Statute (“KRS”) 118.176, and
violate Sections 14, 15 and 115 of the Kentucky
Constitution.
2) Whether the Supreme Court of Kentucky
may refuse to file and adjudicate two original actions
that petition the Court to overrule its decision in
Gibson v. Thompson, 336 S.W.3d 81 (Ky. 2011) that
arguably nullified KRS 118.176.

11

LIST OF PARTIES
1)

GEOFFREY M. YOUNG, pro se, Petitioner

2)

DENISE G. CLAYTON, Chief Judge of the
Kentucky Court of Appeals, Respondent
LIST OF PROCEEDINGS

1)

2019-SC-000699-OA

2)

2019-SC-000700-OA
TABLE OF CONTENTS

QUESTIONS PRESENTED FOR REVIEW

i

LIST OF PARTIES

n

LIST OF PROCEEDINGS

n

TABLE OF CONTENTS ,

. n-m

TABLE OF AUTHORITIES

111-1V

OPINIONS BELOW

1-2

JURISDICTION

2-4

CONSTITUTIONAL PROVISIONS, STATUTES
AND POLICIES AT ISSUE...................... 4-16

Ill

STATEMENT OF THE CASE

17-23

CERTIORARI SHOULD BE GRANTED BECAUSE
KRS 118.176 HAS BEEN NULLIFIED
23-31
CONCLUSION

32-33

TABLE OF CITED AUTHORITIES
1st Amendment

3, 27

14th Amendment

3,27

Civil Rule (“CR”) 15
Civil Rule 76.36
Civil Rule 81
Cohens v. Virginia, 19 U.S. 264, 404 (1821)

24
4-5,8
5, 10-11
22

Gibson v. Thompson, 336 S.W.3d 81 (Ky. 2011)...
......................................... ii, 3, 10-16, 19-25, 28-29, 31
Kentucky Constitution Section 14 .... i, 8, 10-11, 15
Kentucky Constitution Section 15

i, 10, 16

Kentucky Constitution Section 115 .. . i, 5, 10-12, 14
Kentucky Revised Statute (“KRS” 118.176)

IV

ii, 3, 9-10, 12-21, 23-31
KRS 418.040

5, 8-9

Marbury v. Madison, 5 U.S. (1 Cranch) 137, 2 L.Ed.
60 (1803)
21
Stephenson v. Woodward, 182 S.W.3d 171 (Ky.
2006)
14,17-18, 21, 26-27

1
OPINIONS BELOW
On November 25, 2019, the Honorable John D.
Minton, Jr., Chief Justice of the Supreme Court of
Kentucky, entered an order titled, “Filing of
Unauthorized Pleadings” that stated that Geoffrey
M. Young's (Petitioner's) November 22, 2019 petition
for declaratory and injunctive relief and for a
declaration of rights “is not allowed under the rules.”
Appendix (“App.”) at a2-a3
On December 19, 2019, the Supreme Court of
Kentucky denied Petitioner's motion for leave to file
two original actions: the petition for declaratory and
injunctive relief, and a November 26, 2019 petition
for mandamus. I named the Honorable Denise G.
Clayton, Chief Judge of the Kentucky Court of
Appeals, as the only respondent in both original
actions. I named no real parties in interest in

2

connection with either petition. App. at a3-a4
On December 26, 2019, Chief Justice John D.
Minton, Jr., entered an order titled, “Filing of
Unauthorized Pleadings.” App. at a4-a5
On February 14, 2020, the Supreme Court of
Kentucky denied my motion for reconsideration of
the December 19, 2019 order denying leave to file a
petition for declaratory and injunctive relief and a
petition for mandamus. App. at a6-a7
No

legal reasoning or justification was

included in any of these four orders or letters.
JURISDICTION
The order preventing the two original actions
from being filed in the Supreme Court of Kentucky
was entered on December 19, 2019.

The order

denying my motion for reconsideration was entered
on February 14, 2020.

3
The jurisdiction of this Court is established by
28 US Code § 1257. The validity of Kentucky's ballot
challenge statute, as interpreted by the Supreme
Court of Kentucky since 2011, is in question because
that court's interpretation of KRS 118.176 is
repugnant to the right of Kentucky's registered
voters "to petition the Government for a redress of
grievances”

(First

Amendment)

and

violates

Petitioner's right to equal protection under the law
(14th Amendment). If the decision in Gibson v.
Thompson, 336 S.W.3d 81 (Ky. 2011) is not
overturned, voters who challenge the bona fides of a
candidate will be unconstitutionally deprived of their
only appeal as of right in cases where the circuit
court does not strike the name of the challenged
candidate from the ballot.
28 U.S.C. § 2403(c) may apply; therefore this

4
petition is being served on the Attorney General of
Kentucky, the Honorable Daniel Cameron, 700
Capital Avenue, Suite 118, Frankfort, Kentucky
40601.
CONSTITUTIONAL PROVISIONS, STATUTES
AND POLICIES AT ISSUE
A. Kentucky Civil Rule (“CR”) 76.36 reads, in
pertinent part:
(1) Petition for relief.
Original proceedings in an appellate
court may be prosecuted only against a
judge or agency whose decisions may be
reviewed as a matter of right by that
appellate court. All other actions must
be prosecuted in accordance with
applicable law. Original proceedings in
an appellate court may be prosecuted
upon the payment of the filing fee
required by CR 76.42(2)(a) and the
filing of a petition setting forth:
(a) The name of each respondent
against whom relief is sought; ...

5
It should be noted that CR 76.36 does not
require the petitioner to get the permission of the
Supreme Court of Kentucky or its chief justice before
filing his or her original proceeding against a judge.
On November 22, 2019, I attempted to file an
original action in the Supreme Court of Kentucky, a
petition for declaratory and injunctive relief and for a
declaration of rights, pursuant to Section 115 of the
Kentucky Constitution, KRS 418.040, and CR 76.36.
The clerk refused to file it and distribute copies to
the justices.
On November 26, 2019,1 filed another original
action, a petition for a writ of mandamus, against the
Hon. Denise G. Clayton, Chief Judge of the Court of
Appeals, pursuant to Civil Rule 81, and paid the
filing fee. On November 27, 2019, I called the Clerk
f

.

of the Supreme Court and asked why the Court was

6

refusing to file my November 22 original petition.
She said, “Send a motion for leave to file your
petition.

Then it will get to them.”

The clear

implication was that if I didn't ask for leave to file it,
my petition would never be heard by the Court.
I mailed the motion to the Supreme Court on
November 27, 2019. On November 29 I received a
letter dated November 25 from Chief Justice John D.
Minton, Jr., which informed me that my petition
dated November 22 was being returned to me
“because it is not allowed under the rules.” [App. at
a2-a3] On November 29, 2019 I mailed a letter to
him asking, “In what way was my pleading deficient,
and how can I amend it so it gets filed and
considered by the Kentucky Supreme Court?” The
Supreme Court never answered that question.
On December 13, 2019, the Honorable Denise

7
G. Clayton, the Chief Judge of the Court of Appeals,
by counsel, mailed a response asking the Supreme
Court to deny my motion for leave to file the two
original actions. On December 18, 2019, I mailed a
reply to the Supreme Court, and on December 19,
2019, Chief Justice John D. Minton, Jr. entered an
order [App. at a3-a4] denying my motion for leave to
file both original actions.
On December 26, 2019, the Chief Justice of the
Supreme Court mailed me back nine of the ten copies
of my December 18 response to Chief Judge Clayton
and wrote that “it is not allowed under the rules.”
[App. at a4-a5]
Also on December 26, 2019, I mailed a motion
asking the

Supreme

Court

to

reconsider its

December 19, 2019 order to deny my motion for leave
to file both original actions. The Kentucky Supreme

8

Court's only response was an order entered on
February 14, 2020, App. a6-a7, denying my motion
for reconsideration. That was a final order.
By its letter or order entered on November 25,
2019, the Supreme Court of Kentucky added a new
procedural step to CR 76.36 that was not part of the
civil rule: the requirement to ask the Court's
permission before filing a petition for declaratory and
injunctive relief and for a declaration of rights. The
Honorable Chief Justice John D. Minton, Jr.
exceeded his authority and violated Constitution
Section 14 and CR 76.36 by refusing to file and
consider my petition dated November 22, 2019.
B. KRS 418.040 provides as follows:
In any action in a court of record of this
Commonwealth having general jurisdic­
tion wherein it is made to appear that
an actual controversy exists, the
plaintiff may ask for a declaration of

9
rights, either alone or with other relief;
and the court may make a binding
declaration of rights, whether or not
consequential relief is or could be asked.
An actual controversy exists because two of my
KRS 118.176(4) motions to set aside - in Case Nos.
2019-CA-00Q664 against Amy McGrath and 2019CA-001659 against Andy Beshear - are not resolved
unless this Court denies a separate petition for
certiorari that I have started working on. In both
cases,

the

circuit

court dismissed the ballot

challenge without ever hearing it on its merits,
thereby violating the governing statute, and the
Court of Appeals dismissed my motion to set aside,
pursuant to KRS 118.176(4), without ever hearing
the motion or the ballot challenge “in the manner
provided for dissolving or granting injunctions”,
thereby also violating the governing statute. The

10
Court of Appeals cited Gibson v. Thompson, 336
S.W.3d 81, 83 (Ky. 2011) in both cases.

The

declaration of rights I requested via my petition of
November 22, 2019 was that I should be afforded the
right to file a motion to set aside the circuit court's
decision, i.e., one appeal, even if the challenged
candidate was not disqualified by the circuit court.
See KRS 118.176(4) and Constitution Section 115.
When the Supreme Court of Kentucky refused
to file and hear my two original actions, it thereby
violated KRS 418.040 and Sections 14 and 15 of the
Kentucky Constitution.
C. Civil Rule 81, “Relief heretofore available
by common law writs,” states that:
Relief heretofore available by the
remedies of mandamus, prohibition,
scire facias, quo warranto, or of an
information in the nature of a quo
warranto, may be obtained by original

11
action in the appropriate court.
My petition dated November 26, 2019 was a
petition for a writ of mandamus against Denise G.
Clayton, the Chief Judge of the Court of Appeals,
that would have required the Court of Appeals to
decide my ballot challenge on the merits because the
circuit court had failed and refused to do so. There is
no provision in CR 81 that requires a litigant to get
permission from the Supreme Court before filing a
petition. The Supreme Court of Kentucky exceeded
its authority and violated CR 81 and Section 14 of
the Kentucky Constitution by refusing to file and
consider my petition dated November 26, 2019.
D. Section 115 of the Kentucky Constitution
gives all parties “as a matter of right at least one
appeal to another court.” In this case, both of my
petitions/original actions asked the Supreme Court

12
to overturn its decision in Gibson v. Thompson, 336
S.W.3d 81 (Ky. 2011) because it is inconsistent with
Constitution Section 115. The violative clauses of
that decision read as follows:
Subsection (4) of KRS 118.176 provides:
If the court finds the candidate is not a
bona fide candidate it shall so order... or
the court may refuse recognition or
relief in a mandatory or injunctive way.
The order of the Circuit Court shall be
entered on the order book of the court
and shall be subject to a motion to set
aside in the Court of Appeals. The
motion shall be heard by the Court of
Appeals or a judge thereof in the
manner provided for dissolving or
granting injunctions, except that the
motion shall be made before the court or
judge within five (5) days after the
entry of the order in the Circuit Court...
Here, the trial court made no finding
that Thompson was not a bona fide
candidate. Its order dismissing is based
solely on the Movants' lack of standing.
Furthermore, the order dismissing is a
final and appealable order. Because the
expedited appeal procedure set forth in
KRS 118.176(4) applies only to orders

13
disqualifying a candidate, the Movants
were not entitled to move the Court of
Appeals to set aside the order. For this
reason, the Movants' motion for
interlocutory relief pursuant to CR
65.09 must be denied. (Emphasis added)
Id. at 82-83
There is a current controversy about whether
KRS 118.176(4) allows either party to file a motion to
set aside - a single “appeal” - or whether, per
Gibson, only the challenged candidate may appeal an
unfavorable decision by the circuit court.

I have

been contending in pleadings since 2015, in the
context of two ballot challenges I filed in 2015, one in
2018 and one in 2019, that the interpretation of KRS
118.176 (4) that was carved in stone by the Supreme
Court of Kentucky in the Gibson decision violates
fundamental principles of statutory construction.
Section (4) has two possible interpretations:
(a) that either party may make only one “appeal,”

14
called a motion to set aside, to the Court of Appeals;
or (b) that only the challenged candidate may appeal
and that the challenger has no right to appeal an
unfavorable decision to any higher court. The second
interpretation would violate Constitution Section
115.

It cannot have been the intention of the

Kentucky General Assembly to set up a truncated
appeal procedure that violates the Constitution. If
the legislature had intended that the challenger
should have no right of appeal, “it would have so
stated in definitive terms.” Stephenson

v. Wood­

ward, 182 S.W.3d 171 (Ky. 2006)
The Court of Appeals or a judge thereof must
hear any motion to set aside the summary decision of
the Circuit Court “in the manner provided for
dissolving or granting injunctions.” [KRS 118.176
(4); emphasis added] If only the challenged candidate

15
may appeal, the General Assembly would have
written merely, “in the manner provided for
dissolving injunctions.”

The fact that both words

were used means that either the challenger or the
challenged candidate shall be allowed one motion to
set aside as of right. The Gibson decision is error.
E. Section 14 of the Kentucky Constitution,
which is part of the Bill of Rights, reads as follows:
Section 14 Right of judicial remedy for
injury - Speedy trial.
All courts shall be open, and every
person for an injury done him in his
lands, goods, person or reputation, shall
have remedy by due course of law, and
right and justice administered without
sale, denial or delay.
When the Supreme Court of Kentucky refused
to file, consider and decide my petitions dated
November 22, 2019 and November 26, 2019, it closed
the courtroom door and thereby violated Section 14

16
of the Kentucky Constitution.
F. Section 15 of the Kentucky Constitution
reads as follows:
Section 15 - Laws to be suspended only
by General Assembly.
No power to suspend laws shall be
exercised unless by the General
Assembly or its authority.
Every time the Kentucky Court of Appeals
dismisses a motion to set aside that was filed
pursuant to KRS 118.176 (4), without ever deciding
the ballot challenge on the merits, it violates that
statute. Every time the Supreme Court of Kentucky
refuses to overturn its own decision in Gibson v.
Thompson, 336 S.W.3d 81 (Ky. 2011), it nullifies
KRS 118.176 and thereby violates Section 15, which
is part of the Kentucky Bill of Rights.

17
STATEMENT OF THE CASE
The reason I use the phrase “nullifies KES
118.176” is that from 2015 to the present day,
Kentucky's Judicial Department has developed a
procedure that allows it to dismiss any ballot
challenge it doesn't want to try on the merits,
regardless of how meritorious it might be or how
meritless the challenged candidate's defense might
be. Indeed, in my four ballot challenges to date, the
challenged candidate made no defense at all. They
merely filed totally meritless motions to dismiss.
In my four ballot challenges, the circuit court
always waited until after the election before entering
its final order.

The Supreme Court of Kentucky's

decision in Stephenson v. Woodward, 182 S.W.3d
162, 171-172 (Ky. 2006) calls a judge who does that
“a recalcitrant judge”:

18
However, if a court may accept these
actions any time prior to the election,
but loses jurisdiction once the polls
open, there is nothing to prevent a
recalcitrant judge from simply refusing
to adjudicate a KRS 118.176 motion.
The court might simply let the motion
sit until after election day, at which
point jurisdiction would evaporate. We
are confident that the General
Assembly did not intend such a result,
but instead intended the judiciary to
adjudicate
the
qualifications
of
candidates — even if, in rare circum­
stances, such adjudication actually
occurs several days after the election
has occurred.
The circuit court then dismisses the ballot
challenge without ever weighing the evidence
presented by the challenger and the challenged
candidate. But that is unlawful because KRS 118.176
includes no provision that would allow a motion to
dismiss to be filed by the challenged candidate or
would allow the circuit court to dismiss a ballot
challenge without reaching the merits. The statute,

19
read as a whole, places a very high priority on the
speedy resolution of all ballot challenges, and
motions to dismiss can easily add six months or a
year or more to the duration of any civil action. I am
confident that the General Assembly did not intend
that the public be compelled to wait that long before
finding out whether the election was legitimate or
would have to be done over without the challenged
candidate's name on the ballot.
In my experience from 2015 to today, when the
challenger files a motion to set aside the order of the
circuit court, the Court of Appeals invariably violates
KRS 118.176 by delaying a few more weeks and
sending out a show cause order to the challenger
demanding that he explain why he should be allowed
to file a motion to set aside in light of the Supreme
Court's decision in Gibson v. Thompson, 336 S.W.3d

20

81 (Ky. 2011).

That decision instructs that if the

circuit court did not find that the candidate was not
a bona fide candidate, the challenger has no right of
appeal. The challenger then explains in his answer
that the Gibson decision is unconstitutional and that
the circuit court violated KRS 118.176 by refusing to
decide the ballot challenge speedily on the merits.
The Court of Appeals then enters a dismissal
order that “finds” that the challenger failed to show
cause why his motion to set aside should not be
dismissed as improper.

If the challenger files a

motion for discretionary review in the Supreme
Court of Kentucky, that court denies it without
explanation.

Kentucky's judicial department has

used this unconstitutional technique against my
ballot challenges four times since April 29, 2015. In
each case, the challenged candidate never filed a

21
responsive pleading but only a motion to dismiss.
With respect to the interpretation of KRS
118.176 (4), the Supreme Court of Kentucky has
been refusing “to say what the law is” since 2015.
There are two possible intepretations, and only one
of them is constitutional.
“The Supreme Court of Kentucky is the final
arbiter

of Kentucky

constitutional

law.” [See

Kentucky Constitution Section 109; Stephenson v.
Woodward at 175].

While the Supreme Court of

Kentucky might prefer not to overturn its decision in
Gibson v. Thompson, “it would be even more outrage­
ous for it to abandon its Constitutional duty to 'say
what the law is.' Marbury v. Madison, 5 U.S. (1
Crunch) 137, 2 L.Ed. 60 (1803).”

In Gibson, the

Supreme Court of Kentucky should have ruled that
either party may file one motion to set aside because

22

that interpretation of the statute does not violate any
section of the Kentucky Constitution.
Similarly, this Court instructed in Cohens v.
Virginia, 19 U.S. 264, 404 (1821):
It is most true that this Court will not
take jurisdiction if it should not but it is
equally true, that it must take
jurisdiction if it should. The judiciary
cannot, as the legislature may, avoid a
measure because it approaches the
confines of the constitution. We cannot
pass it by because it is doubtful. With
whatever doubts, with whatever
difficulties, a case may be attended, we
must decide it, if it be brought before us.
We have no more right to decline the
exercise of jurisdiction which is given,
than to usurp that which is not given.
The one or the other would be treason to
the constitution. Questions may occur
which we would gladly avoid, but we
cannot avoid them.
As Kentucky's highest court, the Supreme
Court of Kentucky cannot avoid hearing and deciding
the two petitions properly brought before it on a

23

currently existing controversy, simply because it
might prefer not to overturn its previous decision in
Gibson v. Thompson that incorrectly interprets and
thereby nullifies a valid state statute, KRS 118.176.
Certiorari should be granted because
KRS 118.176 has been nullified.
In 2010, a corrupt, vote-buying candidate,
Randy Thompson, was allowed to have his name
appear on the ballot of the general election and be
reelected because Knott County Special Circuit
Court Judge John David Caudill dismissed Jimmy R.
Gibson's ballot challenge for the frivolous reason that
Gibson et al. had lacked standing to challenge
Thompson's bona fides in the primary election that
had occurred months before. Gibson et al. obviously
had standing to file a challenge re the November
general election, which they did, but the circuit

24
court, Court of Appeals and Supreme Court all
ignored that fact. The circuit court refused to allow
Gibson et al. to amend their initial ballot challenge,
and that refusal constituted a willful violation of
Kentucky Civil Rule 15.
On April 29, 2015, I filed a ballot challenge
asking the Jefferson Circuit Court, Division 8, to
remove Attorney General Jack Conway’s name from
the ballot of the upcoming Democratic primary on
the grounds that he had conspired with other
powerful Democrats and violated Kentucky's election
laws to rig the primary against me. I included a lot
of pertinent evidence in my original ballot challenge.
Circuit Judge McKay Chauvin refused to decide the
challenge on the merits, violated KRS 118.176, and
dismissed my challenge for the sole reason that I
hadn't alleged “that the Defendant fails to meet the

25
applicable

criteria

(i.e.

age,

citizenship,

and

residency.” [Order at 3; Jefferson Circuit Case No. 15-CI002043; July 2, 2015]
I filed a motion to set aside in the Court of
Appeals, but they entered the following dismissal
order on August 11, 2015:
On July 14, 2015, this Court directed the
movant to show cause why this action should
not be dismissed as improperly taken pursuant
to KRS 118.176 (4). See Gibson v. Thompson,
336 S.W.3d 81 (Ky. 2011). Having considered
the movant's response to the July 14 order and
the respondent's response, and having been
otherwise sufficiently advised, the Court fails
to find sufficient cause and ORDERS/that this
action be DISMISSED as improperly taken.
The Court of Appeals failed and refused to
decide my ballot challenge and my motion to set
aside on their merits, which means that it violated
and nullified KRS 118.176. The Supreme Court of
Kentucky denied my motion for discretionary review
without explanation. The name of Jack Conway, an

26
unqualified, primary election rigging candidate,
appeared on the Democratic primary ballot on May
19, 2015 because the circuit court and the Court of
Appeals violated KRS 118.176 and refused to decide
my first ballot challenge on the relative merits.
On October 30, 2015, I filed a ballot challenge
in Jefferson Circuit Court, Division Ten, against
Attorney General Jack Conway re the upcoming
general election for Governor and Lieutenant
Governor. The Honorable Judge Angela McCormick
Bisig entered a dismissal order after the election and
used two frivolous justifications: mootness (because
Mr. Conway had lost the general election) and the
doctrine of res judicata. Order at 1-3; November 30,
2015; Ballot Challenge No. 15-CI-005566. The first
reason, mootness, was reversible error because the
Kentucky Supreme Court's decision in Stephenson v.

27

Woodward, 182 S.W.3d 162, 170-173 (Ky. 2006)
instructed that ballot challenges do not become moot
if they were filed before the day of the election. The
second reason was clearly reversible error because
my previous ballot challenge had never been
adjudicated on the merits. Once again, the Supreme
Court denied my motion for discretionary review.
KRS 118.176 was nullified twice in 2015 and
Jack Conway's name appeared on the primary and
general election ballots even though he had
conspired with other Democrats to rig the primary
and violate my First and 14th Amendment rights.
On September 27, 2018, I filed a ballot
challenge against Amy McGrath (D) asking the Scott
County Circuit Court, Division 1, to strike her name
from the general election ballot. I had it properly
served on October 3, 2018, at which time the civil

28

action commenced.

I alleged that she joined an

ongoing conspiracy of powerful Democrats and
helped them rig the 2018 primary against me for the
U.S. House of Representatives in Kentucky's Sixth
Congressional District. Ms. McGrath filed a very
untimely motion to dismiss instead of a genuine
responsive pleading. The Honorable Judge Jeremy
Mattox essentially did nothing for almost seven
months and entered an order dismissing my ballot
challenge on April 23, 2019. Instead of hearing and
deciding the ballot challenge on the merits, as KRS
118.176 requires,

the circuit court concluded,

“Defendant (sic) lost her bid to represent the Sixth
Congressional District of Kentucky making all
allegations of Plaintiff (sic) moot.” Order at 2
I filed a motion to set aside, pursuant to KRS
118.176(4), and the Court of Appeals again cited

29
Gibson v. Thompson, 336 S.W.3d 81, 82 (Ky. 2011):
[bjecause
the
expedited
appeal
procedure set forth in KRS 118.176(4)
applies only to orders disqualifying a
candidate, the Movants (sic) were not
entitled to move the Court of Appeals to
set aside the order.
The Court of Appeals concluded:
In the case sub judice, the circuit
court did not find McGrath was “not a
bona fide candidate.” Young therefore
may not invoke this Court's jurisdiction
through the expedited appeal procedure
set forth in KRS 118.176(4). Order at 4
I filed a motion for discretionary review, and
the Supreme Court of Kentucky decided to deny the
motion on March 23, 2020. Once again, KRS 118.176
was violated and nullified as a direct result of the
recalcitrance of the circuit court and the Kentucky
Supreme Court's decision in

Gibson v. Thompson,

which appears to violate the Kentucky Constitution.
On October 8, 2019,1 filed a ballot challenge

30

against

then-Attorney

General

Andy

Beshear,

pursuant to KRS 118.176, in the Jefferson Circuit
Court, Division 6. That motion included a great deal
of evidence suggesting that Mr. Beshear had joined a
conspiracy of powerful Democrats to rig the 2019
Democratic primary for Governor against me, which
is illegal. See KRS 118.105 (1).
The circuit court judge, the Honorable Olu A.
Stevens, never held an evidentiary hearing and
refused to decide the challenge before the day of the
general election, November 5, 2019. The circuit court
entered a dismissal order on November 6 that did not
address or discuss any of the allegations in my ballot
challenge.

Instead, the erroneous and arguably

frivolous order addressed an allegation that I never
made:
“A careful review of Movant's motion

31
indicates it is devoid of any allegation
that the Respondent is not at least
thirty years old or has not resided in the
Commonwealth for at least six years
preceding the general election of
November 5, 2019.” Order at 1
That is known as a fallacious straw-man argument,
and it happens to be identical to the fallacious strawman argument Jefferson Circuit Judge McKay
Chauvin, Division 8, used in his dismissal order of
July 2, 2015.
I wrote and filed a motion for discretionary
review (ten copies), but the Supreme Court of
Kentucky mailed one copy back to me with my
uncashed check for $150.00.

For the fourth time

since the Gibson v. Thompson decision was entered,
KRS 118.176 was nullified by Kentucky's judicial
department.

32

CONCLUSION
Today's Kentucky Supreme Court does not
seem to be aware that it has no authority to violate
the Constitution, state statutes, and the rules of civil
procedure in order to avoid having to decide two
original actions that approach the Constitution.
When faced with a petition for declaratory and
injunctive relief and for a declaration of rights, and a
petition for mandamus, neither one of which was in
any way frivolous, the Supreme Court of Kentucky
simply refused to file and consider them. It thereby
refused “to say what the law is.” Petitioner submits
that this Petition for Writ of Certiorari should be
granted. This Court may wish to consider summary
reversal of the four decisions of the Supreme Court of
Kentucky that are reproduced in the Appendix.

33

Dated: March 28, 2020.
Respectfully submitted,

Geoffrey M. Young, pro se
454 Kimberly Place
Lexington, KY 40503
(859) 278-4966
Email: energetic22@yahoo.com

